             U.S. Department of Energy
             Office of Inspector General




    Special Report
    The Department of Energy's Acquisition
    Workforce and its Impact on
    Implementation of the American
    Recovery and Reinvestment Act of 2009




    IG-RA-09-02                            March 2009
1
                                Department of Energy
                                    Washington, DC 20585

                                        March 30, 2009


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 Special Report on "The Department of Energy's Acquisition
                         Workforce and its Impact on Implementation of the American
                         Recovery and Reinvestment Act of 2009"

INTRODUCTION

Signed by the President on February 17, 2009, the American Recovery and Reinvestment Act
of 2009 (Recovery Act) seeks to strengthen the U.S. economy through the creation of new
jobs, aiding State and local governments with budget shortfalls, and investing in the long-term
health of the Nation's economic prosperity. Under the Recovery Act, the Department of
Energy will receive approximately $40 billion for various energy, environmental, and science
programs and initiatives. To have an immediate stimulative impact on the U.S. economy, the
Department's stated goal is to ensure that these funds are spent as expeditiously as possible,
without risking transparency and accountability. Given the Department's almost total reliance
on the acquisition process (contracts, grants, cooperative agreements, etc.) to carry out its
mission, enhanced focus on contract administration and, specifically, the work performed by
Federal acquisition officials is of vital importance as the unprecedented flow of funds begins
under the Recovery Act.

As the largest civilian contracting agency in the Federal government, sound contract
administration policies as well as a stable, experienced acquisition workforce are essential
components for the effective execution and performance of the Department's core missions.
In recent years, the concern over the availability of acquisition professionals in sufficient
numbers to provide effective contract administration has been recognized as one of the
Department's most significant management challenges. The Department's enhanced
responsibilities under the Recovery Act underscore the importance of this challenge.

BACKGROUND

In September 2007, the Office of Inspector General initiated a review to examine the staffing
levels of the Department's acquisition workforce. The results of this review were conveyed in
a September 24, 2007, advisory memorandum to the Deputy Secretary. A copy of the
memorandum is attached. Based on the results of our review, we raised concerns that the
number of Departmental contract specialists had not kept pace with the demand for their
services. We observed that without an adequate number of contract specialists, the sheer
quantity of procurement instruments and their complexity, combined with the expansive
nature of the Department's contract management structure, had the potential to affect the
success or failure of virtually every endeavor undertaken by the agency.

Using 1998 through 2006 as the comparative period, our analysis showed that the dollar
value, impact, and complexity of Department procurement efforts had increased dramatically.
For example, between 1998 and 2006, the Department's annual budget increased by 40
percent and procurement obligations increased by nearly 50 percent. However, the overall
number of contract specialists had essentially remained constant. In fact, during this period,
the number of contract specialists actually decreased from 435 to 431 individuals. Based on
this and other analytical factors, such as the rate of retirement eligibility among contract
specialists, we concluded that the Department faced a major challenge in ensuring that it had
an acquisition workforce properly sized to meet current and future contracting needs.

UPDATE – THE CHALLENGE POSED BY THE RECOVERY ACT

As outlined above, the general conclusion of our 2007 review was that the Department's
budget, procurement obligations, and the number of procurement actions had risen steadily in
recent years, while the number of contract specialists to oversee and execute these functions
had remained relatively constant. As a result of the Recovery Act and its significant impact
on Department of Energy operations, we decided to update our analysis through 2008 to
determine if the size of the procurement workforce had changed in the intervening period.

We found that since our review in September 2007 the Department had, in fact, increased the
number of contract specialists by 20 percent, with more than 520 contract specialists now
employed by the agency. Relying on data provided by senior Departmental procurement
officials, the following graphic illustrates the overall trend in the number of contract
specialists employed by the Department in the 10-year period between 1998 and 2008.

                                                         522
  525
  500
  475
  450        435            427           431
  425                                                                     Contract Specialists
  400
  375
  350
  325
  300
           FY 1998        FY 2000       FY 2006        FY 2008



To a large extent, the growth in the number of contract specialists occurred in the National
Nuclear Security Administration (NNSA). In fact, of the 91 additional contract specialists, 34
were added to the NNSA roster. We noted that of the Department's complex series of




                                                2
missions and activities, NNSA is likely to be the least affected by increased funding and
program expansion under the Recovery Act.

From our perspective, the overall increase in personnel was an incremental improvement from
2006. However, as was the case at the time of our original review, procurement obligations
within the Department have continued to rise steadily in recent years, increasing demands on
the procurement workforce. Recent progress in adding contract specialists notwithstanding,
from 1998 to 2008, Department procurement obligations increased approximately 61 percent,
while the number of contract specialists increased only 20 percent.

Additionally, we found that the annual attrition rate of contract specialists currently exceeds
nine percent due to retirement and other factors. The number of contract specialists who
were retirement-eligible and those nearly in that category was alarmingly high. For example,
in 2008, nearly 20 percent of the Department's contract specialists were eligible to retire.

Finally, senior Departmental procurement officials expressed their concern that the demand
for procurement professionals is so great throughout government and in government-support
industries that employee recruitment and retention efforts are likely to become more, rather
than less, of a problem in the future. Based on publicly available information concerning
acquisition staffing, we believe that this concern is well-founded. Collectively, these issues
reflect the challenge the Department faces in ensuring that its acquisition workforce is fully
staffed.

ACTIONS IN PROCESS

Department Procurement officials informed us that the increase in contract specialists was the
direct result of a concerted effort on their part to recruit additional personnel. We were also
told that the Department's Office of Procurement and Assistance Management had an
aggressive program in place to ensure that it has the "talent" to meet its requirements. We
were informed, for example, that Procurement is working with the Office of Human Capital to
obtain direct hire authority, which Procurement officials believe would be of great assistance
in recruiting additional contract specialists. Direct hire authority requires that the Secretary
make a determination that a shortage of qualified candidates exists for the acquisition
workforce, a situation that appears to be a reality at the Department. Procurement officials
also indicated that one field contracting office had successfully utilized special authority
granted at the end of Fiscal Year 2008 to rehire Federal annuitants, who can return to
government service without a corresponding loss in pension benefits. Further, the
Department informed us that it is using an Office of Personnel Management (OPM)
generated, pre-qualified applicant listing to recruit entry-level contract specialists pursuant to
a joint OPM/Federal Acquisition Institute pilot program.

While these are positive steps, senior Procurement officials acknowledged that there are still a
number of institutional barriers that make personnel recruitment a significant challenge.
Institutional impediments to Department staffing were discussed at a March 4, 2009, hearing




                                                3
before the Subcommittee on Energy and Water Development, House Committee on
Appropriations, at which the broader concern of having the necessary human capital in place
to meet Departmental mission requirements was explored in depth.

ADEQUACY OF ACQUISITION WORKFORCE – A GOVERNMENT-WIDE CONCERN

Concerns relating to a sufficient number of acquisition professionals are not unique to the
Department of Energy. In fact, on March 4, 2009, the President issued a memorandum on
government contracting to all Federal agencies. The President's memo described a number of
problems that currently exist in the Federal contracting arena. It also identified a number of
remedial steps that agencies should be taking to address these concerns. One of the most
emphatic points made in the Presidential memorandum concerned the size and capability of
the acquisition workforce. The President stated, "the Federal Government must have
sufficient capacity to manage and oversee the contracting process from start to finish, so as to
ensure that taxpayer funds are spent wisely and are not subject to excessive risk." Among
other things, the President directed the Director of the Office of Management and Budget, in
collaboration with appropriate agency officials, to develop and issue government-wide
guidance by September 30, 2009, to "…assist agencies in assessing the capacity and ability of
the Federal acquisition workforce to develop, manage, and oversee acquisitions
appropriately." As one of the largest contracting agencies in the Federal Government, the
need for the Department to implement aggressive efforts to adopt the President's proposals is
essential, particularly in light of the Recovery Act-related increase in acquisition workload.

CONCLUSION

In the environment currently facing the Department, ensuring transparency, accountability,
and high quality program management requires the services of experienced, well-trained
contract specialists. Over the last two years, the Department has made progress in expanding
its roster of professionals in this field. Moreover, as noted previously, additional staffing
initiatives are underway. We remain concerned, however, that sustaining this progress will be
exceedingly difficult under current circumstances. Further, the recent increase in the number
of contract specialists, as positive a step as it may be, does not reflect the increased demand
for procurement service as a result of the unprecedented additional funding provided to the
Department under the Recovery Act.

We are also concerned that the work funded by the Recovery Act through Department
contracts and financial assistance will place additional pressures on other segments of the
acquisition workforce, particularly Federal Project Directors and Contracting Officers
Representatives. Procurement officials expect that actions associated with the Recovery Act
will be complex, requiring more rigor and oversight, resulting in increased demands on
contract specialists as well as Federal Project Directors and Contracting Officers
Representatives. While it is clearly management's responsibility to determine the precise staff
size needed as the Department moves forward, the current staffing level appears inadequate
relative to current and anticipated future needs as the Department's mission responsibilities
expand.



                                               4
We concluded that the Department staffing efforts should continue and, in fact, be intensified.
We suggest that the Department periodically re-evaluate the need for additional contract
specialists and other procurement professionals. In addition, we suggest that the Department:
(1) maximize the use of the full range of recently adopted techniques for employee
recruitment; (2) explore new methodologies to recruit and retain qualified procurement
personnel; (3) determine if there are cross-training opportunities for existing employees who
can augment the current procurement workforce on a temporary basis; and (4) expedite
formal determinations concerning the availability of qualified candidates that exist for
acquisition positions, once such requests are submitted by the Office of Human Capital.

Attachment

cc: Office of the Deputy Secretary
    Office of the Under Secretary for Science
    Office of the Under Secretary of Energy
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Financial Officer
    Chief Human Capital Officer
    Director, Office of Management




                                               5
                                                                                    Attachment

                                Department of Energy
                                     Washington, DC 20585

                                     September 24, 2007


ADVISORY MEMORANDUM FOR THE DEPUTY SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  The Department of Energy’s Acquisition Workforce


INTRODUCTION

For over a decade, the Office of Inspector General has identified “contract administration” as
one of the most significant management challenges facing the Department of Energy. Our
concern has been echoed in the form of numerous Departmental self-evaluations, studies and
analyses as well as by reports issued by the U.S. Government Accountability Office. In an
agency as contractor-dependent as the Department, effective contract administration is
critical. It involves active roles for many participants, primarily the professional acquisition
officials dedicated to the procurement process.

We have become concerned that the number of Departmental acquisition officials has not
kept pace with the demand for their services. Based on this concern, we initiated a limited
review to examine trends in the staffing levels of the acquisition workforce. This advisory
memorandum summarizes the results of our review.

BACKGROUND

The Department relies heavily on its contractor workforce to operate a vast network of
laboratories, production facilities and environmental remediation projects across the country.
In addition, on an annual basis, the Department awards thousands of contracts, grants,
cooperative agreements and other instruments in pursuit of its energy and science missions.
Consuming more than 90 percent of the Department’s annual budget, contractual instruments
are awarded to industrial companies, states and localities, small- and mid-sized firms,
academic institutions and non-profit organizations that are involved in a broad range of
Department programs, including its most sensitive national security activities. Sound
contract management principles as well as a stable, skilled and experienced acquisition
workforce are key components to the effective performance of the Department’s programs.




                                               6
The Department’s contract management structure centers on its Federal acquisition
workforce. Two critically important components of this workforce are contract specialists
and contracting officer representatives. Contract specialists, often referred to as “1102”
series personnel, are responsible for soliciting, negotiating, administering, terminating and
retiring (close-out) contracts and other procurement instruments. Contracting officer
representatives act for contract specialists in support of numerous specific functions,
including essential on-site contract administration and various technical monitoring
functions.

OBSERVATIONS

In recent years, the dollar value, impact and complexity of Department procurement efforts
have increased. However, the overall number of acquisition officials has essentially
remained constant. Between 1998 and 2006, the Department’s annual budget increased by
40 percent to $23.5 billion. Of the $23.5 billion, procurement obligations accounted for
$22.6 billion, more than 90 percent of the overall budget. Between 1998 and 2006,
procurement obligations increased by nearly 50 percent.

During the same period, the number of contract specialists actually decreased from 435 to
431 individuals, while the number of contracting officer representatives rose only slightly,
from 1067 to 1103 individuals. The diagrams below contrast the trends in procurement
obligations and the number of contract specialists between 1998 and 2006.

   23
   22
   21
   20
                                                          Procurement Obligations (in
   19
                                                          $ billions)
   18
   17
   16
   15
           FY 1998         FY 2000         FY2006



  450
  445
  440
  435
  430
  425                                                         Contract Specialists
  420
  415
  410
  405
  400
           FY 1998         FY 2000         FY2006


Similarly, in this eight year period, the number of Departmental contract actions rose by
nearly 30 percent. Yet, as noted previously, there was essentially no corresponding increase
in the number of acquisition professionals. As a direct consequence, the monetary value of
contractual obligations handled by each contract specialist rose by nearly 50 percent.



                                               7
Looking at this issue from another perspective, in 2006, contract specialists accounted for 2.9
percent of the Department’s total workforce, but were responsible for important aspects of 90
percent of the Agency’s budget. Even in the best of circumstances, managing a large
inventory of contracts and related procurement instruments is difficult and complex.
Significant changes in the balance between workload and available staff may complicate this
already challenging work.

                                   Prospective Retirements

We examined statistics related to the retirement status of the Department’s acquisition
workforce. Between 1998 and 2006, the percentage of contract specialists eligible to retire
nearly tripled, rising from 5.1 percent to 18.5 percent. In 2006, nearly 45 percent of the
contract specialists were over the age of 50. In 1998, by contrast, just over 30 percent were
in this age category. According to statistics prepared by the Federal Acquisition Institute, the
retirement vulnerability of contract specialists at the Department of Energy for 2010
represents one of the highest acquisition workforce retirement rates within the Federal
Government. The table below summarizes the statistical findings.

                     Contract
                                               Over 50               Eligible to Retire
                    Specialists
 FY 1998                435                     31.1%                      5.1%
 FY 2006                431                     44.5%                      18.5%

The retirement status of the procurement workforce should be an issue of interest as the
Department looks to the future. Clearly, it has the potential to significantly exacerbate the
overall human resource challenge.

                                     Supporting Functions

Our observations focused on the traditional “1102” contracting workforce. Yet, there are
numerous other positions and functions that are critical to successful contract placement and
administration. These positions, which support the contract specialist function, include cost
and price analysts, personal property management specialists and contractor human resource
management specialists. While we did not specifically analyze trends in these categories,
anecdotal information suggested that these important support functions may face
demographic and other challenges similar to those of the “1102” workforce.

                                          Complexity

In examining the current state of the contracting processes at the Department, it was apparent
that the overall complexity and sophistication of contracts had increased dramatically in
recent years. Specifically, we noted that as the Department’s acquisition strategy has shifted
to more performance-based contracts and to an increased emphasis on competitive sourcing,
the complexity of operations and workload associated with individual contracts has placed an
added burden on contracting officials. Further, the Department has implemented a new


                                               8
contractor governance model for several of its sites under the authority of the National
Nuclear Security Administration. While the Office of Inspector General has expressed its
concerns about the governance model, if it is to be successful, an appropriately sized and
highly proficient Federal acquisition workforce is essential.

CONCLUSION

The Department faces a major challenge in ensuring that it has the acquisition workforce
necessary to meet current and future contracting needs. Clearly, simply adding additional
specialists will not automatically solve every contract management concern. There are other
factors which must be considered. For example, adequate and appropriate formal and
informal training programs are important elements in improving the Department’s contract
management activities. In addition, the organization and structure of the Department’s field
contracting offices should be periodically re-evaluated to be sure that they reflect the
Department’s evolving operating environment.

Given the importance of the Department’s mission and the fact that the Department will
spend billions of dollars pursuing programs vital to the well-being of the American people,
there are compelling reasons to ensure that the Agency’s acquisition workforce is adequately
staffed, well-trained and well-equipped. Under your leadership and that of Secretary
Bodman, the Department has emphasized human resource issues. We concluded, however,
that special attention is needed to develop specific strategies to address acquisition workforce
concerns.

cc: Under Secretary for Science
    Under Secretary for Energy
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Chief Human Capital Officer
    Director, Office of Management




                                                                  IG Report No. IG-RA-09-02



                                               9
                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:


1. What additional background information about the selection, scheduling, scope, or procedures of
   the inspection would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have any
   questions about your comments.

Name                                              Date


Telephone                                         Organization


When you have completed this form, you may telefax it to the Office of Inspector General at (202)
586-0948, or you may mail it to:


                                 Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585
                                     ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Judy Garland-Smith (202) 586-7828.




                                                  10
The Office of Inspector General wants to make the distribution of its reports as customer friendly and
cost effective as possible. Therefore, this report will be available electronically through the Internet at
                                         the following address:


                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://www.ig.energy.gov


             Your comments would be appreciated and can be provided on the Customer Response Form.
